No. 19-933
IN THE

Supreme Court of the United States
MONEX DEPOSIT COMPANY, ET AL.,
v.

Petitioners,

COMMODITY FUTURES TRADING COMMISSION,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 9th day of June, 2020, served the Reply Brief for Petitioners
upon each party separately represented in this proceeding by causing an electronic
copy of the same to be delivered to counsel of record at the e-mail address listed
below:
Noel J. Francisco
Solicitor General of the United States
SupremeCtBriefs@usdoj.gov
Counsel for Respondent

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
William M. Jay
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
Counsel of Record for Petitioners
June 9, 2020

2

